GR-70-98-021
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Justice Programs
Drug Court Implementation Initiative to the
New York State Unified Court System
Grant Number 95-DC-MX-0064
GR-70-98-021
 
September 22, 1998
 
*****
EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grant
number 95-DC-MX-0064, awarded by the U.S. Department of Justice (DOJ) Office of Justice
Programs (OJP) to the New York State Unified Court System (Unified Court). The Unified
Court received a grant of $996,000 and sub-granted the total amount to the Fund for the
City of New York (the Fund). The Fund is a non-profit organization that supports and
administers public and private projects to improve the effectiveness of government and the
quality of life in New York City. The Fund used the sub-grant to implement a drug
treatment court in Brooklyn. In April 1998, the Unified Court was awarded a $199,999 grant
supplement, which was also sub-granted to the Fund. The total grant award was $1,195,999.
The grant project period is September 15, 1995 through 
April 30, 1999. As of June 30, 1998, the grantee had received federal reimbursements
totaling $813,911 and had spent $330,588 of state matching funds.
Our audit concentrated on, but was not limited to, the period September 30, 1995
through July 31, 1998. We tested the accuracy and reliability of the grantees and 
sub-grantees accounting system, reviewed the general ledger, and determined if
costs charged to the grant were allowable, allocable, and reasonable. For purposes of this
review, we used: the Office of Management and Budget (OMB) Circular A-110, Uniform
Administrative Requirements for Grants and Other Agreements with Institutions of Higher
Education, Hospitals and Other Nonprofit Institutions; OMB Circular A-122, Cost
Principles for Nonprofit Organizations; and the OJP Financial Guide.
We found that costs claimed under the grant were generally allowable, allocable,
reasonable, and in accordance with grant requirements. The drug treatment court was
operating and the Unified Court was implementing activities to meet grant objectives.
However, we found that the Unified Court violated the following grant conditions. 


The Unified Court submitted progress and financial status reports but most reports were
    not timely, and the financial status reports were not accurate.


The Unified Court was not adequately monitoring the Fund.

These items are discussed in the Findings and Recommendations section of the report.
Our Scope and Methodology section appears in Appendix I.
#####